                                               UNITED STATES DEPARTMENT OF EDUCATION 

                                                    OFFICE OF INSPECTOR GENERAL 

                                                                          REGION V 

                                                                  III NORTH CANAL, SUITE 940 

                                                                    CHICAGO, ILLINOIS 60606 


                                                                        FAX: (312) 353-0244
     Audit                                                                                                                                         Investigation
(312) 886-6503 	                                                                                                                                  (312) 353-7891


                                                                                                          SEP 22 2003
                                                                                           Control Number ED-OIG/A05D0019


               Mr. Charles Wilson, Director
               C. 1. Wilson Academy I 

               2033 E. Southern Avenue 

               Phoenix, AZ 85040 


               Dear Mr. Wilson:

               This Final Audit Report presents the results of our audit ofthe C. I. Wilson Academy
               I's (Academy) use of U.S. Department of Education (ED) funds for the period July 1,
               2001, through June 30, 2002 (2001-2002 school year). The objective of our audit was to
               determine if the Academy expended ED funds according to the law and applicable
               regulations.

               Our audit disclosed that the Academy did not expend Public Charter Schools Program
               (PCSP) grant funds in accordance with the law and applicable regulations. The Academy
               charged $32,783 of the $170,000 in PCSP funds it received for the 2001-2002 school
               year for costs that were unallowable. In addition, the Academy was unable to provide
               documentation supporting its use of an additional $1,044 received.

               We provided a draft of this report to the Academy. However, the Academy did not
               provide us with comments.

                                                                     AUDIT RESULTS

               Finding No.1 	 The Academy Charged $32,783 in Unallowable Costs to the PCSP
                              Grant

               For the 2001-2002 school year,l the Academy charged $32,783 to the PCSP grant for
               costs that were unallowable. We judgmentally2 selected 11 expenses totaling $114,459
               from the 57 expenses totaling $168,956 charged to the PCSP grant for the 2001-2002
               school year. The 11 expenses were selected from 10 cost categories shown in the
               Academy's general ledger. We reviewed documentation supporting these expenses and



                   1   The Academy's second year of funding. 

                   2   See Objective, Scope, and Methodology. 



                            Our mission is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Final Audit Report                                                                    ED-OIG/A05-D0019


noted four were for cellular telephone services,3 accounting services4, property taxes, and
a bank service fee.5 We identified three additional cellular telephone services costs
charged to the grant for the 2001 – 2002 school year. We do not consider these costs to
be initial operational costs not met by other sources or related to the initial
implementation of the Academy.

The Elementary and Secondary Education Act of 1965, as amended by the Improving
America’s Schools Act of 1994, Title X, Part C, Section 10304(f)(3) and the Charter
School Expansion Act of 1998,6 allows charter schools to spend funds for activities
related to post award planning and design of the educational programs and initial
implementation of the charter school. Activities related to initial implementation may
include (a) informing the community about the school, (b) acquiring necessary equipment
and educational materials and supplies, and (c) acquiring or developing curriculum
materials. Charter schools are allowed to pay for other initial operational costs not met
by other sources provided that those costs are directly related to the intended purpose of
the grant. The intent of the PCSP grant is to pay for necessary items and services that
would support the initial implementation and operations of the school while also allowing
the school to become financially independent.

The Academy did not have policies and procedures in place to provide reasonable
assurance that federal funds were expended on activities allowable under the law.
Instead, Academy officials relied on their own interpretation of the charter school law
when purchasing items and services with PCSP funds. The costs we identified as
unallowable were not included in the Academy’s PCSP grant budget. Had Academy
officials reviewed their PCSP grant budget or contacted an ED charter school program
official before charging general operational costs to the grant, the Academy may not have
expended PCSP funds on unallowable costs.

Because Academy officials used $32,783 in PCSP grant funds to pay for general
operational costs, the Academy was unable to use those funds to purchase items that
would increase the chances of the Academy becoming financially independent.

Recommendations

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the Academy to


3
  According to the Academy’s Director, Academy staff used cellular telephones to communicate with
administrators and for security purposes.
4
  The Academy hired a service provider to perform accounting and consulting services. The services
performed for the Academy consisted of general financial consulting and accounting services related to the
day-to-day operations of the school.
5
  The cost category for the cellular telephone charges consisted of four transactions. The cost category for
the accounting charges consisted of three transactions. The cost categories for property taxes and the bank
service fee each were comprised of a single transaction.
6
  The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                     2
Final Audit Report	                                                                         ED-OIG/A05-D0019


1.1 	 refund $32,783 to ED; and

1.2 	 develop and implement policies and procedures that provide reasonable assurance
      that federal funds are expended on activities that are allowable under the law.

Finding No. 2 The Academy Cannot Support Its Use of $1,044 in PCSP Funds

The Academy was unable to provide documentation supporting its use of $1,044 in PCSP
funds. The Academy drew down $170,000 in PCSP funds for the second year (2001-
2002 school year) of the grant but provided support for only $168,956.

According to 34 C.F.R. § 75.702 and 75.730(b),7 a grantee shall use fiscal control and
fund accounting procedures that insure proper disbursement of and accounting for federal
funds. The grantee must keep records that fully show how it used federal funds.

For the 2001–2002 school year, the Academy did not have policies and procedures for
reconciling the amount of PCSP grant funds received to the amount spent. In addition, at
the start of our audit in December 2002, the Academy’s current controller had only
recently started working for the Academy. At that time, he was not completely familiar
with the computer system and related codes for financial transactions.

Without supporting documentation, the Academy did not demonstrate that it used $1,044
($170,000 - $168,956) for the intended purposes of the PCSP grant.

Recommendation

We recommend that the Chief Financial Officer, Office of the Chief Financial Officer, in
conjunction with the Deputy Under Secretary for the Office of Innovation and
Improvement, instruct the Academy to

2.1 	 refund $1,044 to ED.

                                              BACKGROUND

The purpose of the PCSP is to provide grants for the planning, design, and initial
implementation of charter schools created by members of the local community. Grants
may be made for a period of up to three years. Funds may be used to plan and design the
education program of the charter school and evaluate the effects of charter schools.

Charter schools are governed by the charter school legislation enacted in the Elementary
and Secondary Education Act of 1965, as amended by the Improving America’s Schools
Act of 1994, Title X, Part C, Section 10304(f)(3), and the Charter School Expansion Act
of 1998.8 Charter schools that receive a grant directly from the federal government also
must adhere to regulations listed in 34 C.F.R. Parts 75, 82, and 99.

7
    Unless otherwise specified, all regulatory citations are to the July 1, 2001, volume.
8
    The law was amended by the No Child Left Behind Act of 2001, Title V, Part B.


                                                         3
Final Audit Report	                                                     ED-OIG/A05-D0019




The Academy received its charter from the Arizona State Board of Education and opened
in September 1999. The Academy applied for a PCSP grant and received approval from
ED on May 3, 2000. The grant provided the Academy with startup funding for a three-
year period. For the 2001-2002 school year, the second year of funding, the Academy
received $170,000.

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if the Academy expended ED funds
according to the law and applicable regulations. Our audit covered the award ED made
on July 24, 2001, for $170,000 and costs charged to the PCSP grant for the 2001-2002
school year.

To accomplish our objective, we

• 	 interviewed Academy personnel;
• 	 reviewed accounting records and identified 57 expenditures totaling $168,956
    charged to the PCSP grant;
• 	 judgmentally selected 11 expenditures totaling $114,459. We selected large dollar
    expenditures and/or those with descriptions that, in our opinion, were inconsistent
    with the intent of the PCSP grant;
• 	 reviewed supporting documentation (invoices and canceled checks) to determine if
    the 11 expenditures charged to the PCSP grant were supportable and allowable.

We also relied, in part, on the Academy’s computerized accounting records maintained
using Peachtree© software. We compared the Academy’s accounting records with
information from ED’s Central Automated Processing System. We also compared the
Academy’s supporting documentation, consisting of invoices and canceled checks, with
it’s computerized accounting records. Based on our tests, we concluded the accounting
records were sufficiently reliable to be used in meeting the audit’s objectives.

We performed our audit work between December 2002 and March 2003. We visited the
Academy on December 11, 2002, and discussed the results of our audit with Academy
officials on March 24, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                      STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the Academy’s management
control structure applicable to all ED awards because this step was not necessary to
achieve our audit objective. Instead, we relied on our testing of the Academy’s
compliance with the PCSP law and applicable regulations. Our testing disclosed a
material weakness in the Academy's management controls over federal awards. The


                                            4

Final Audit Report                                                       ED-OIG/AOS-D0019



Academy did not have policies and proc~dures in place to provide reasonable assurance
that PCSP funds were expended according to the law. This weakness is discussed in the
AUDIT RESULTS section of this report.

                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final action on the audit.

                       Jack Martin
                       Chief Financial Officer
                       Office of the Chief Financial Officer
                       400 Maryland Ave, SW, Room 4E313
                       Washington, DC 20202

                       Nina Shokraii Rees, Deputy Under Secretary
                       Office of Innovation and Improvement
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 4W317
                       Washington, DC 20202

It is the policy ofthe U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. §552) , reports issued by
the Office of Inspector General are available, if requested; to members of the press and
general public to the extent information contained therein is not subject to exemptions in
the Act.




                                          ~~.
                                              R1C~SJ
                                              Regional Inspector General
                                              for Audit




                                              5
